No. 19-917
IN THE

Supreme Court of the United States
___________

JOSLYN MANUFACTURING CO., LLC AND JOSLYN CORP.,
Petitioners,
v.
VALBRUNA SLATER STEEL CORP. AND FORT WAYNE
STEEL CORP.,
Respondents.
___________

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
___________

PETITIONERS’ REPLY BRIEF
___________

JOSHUA G. VINCENT
HINSHAW & CULBERTSON
151 N. Franklin St., #2500
Chicago, Illinois 60606
(312) 704-3463
STEPHEN D. DAVIS
STEVE DAVIS LAW, P.C.
1333 Burr Ridge Parkway
Burr Ridge Illinois 60527
(630) 756-3042

CARTER G. PHILLIPS *
TIMOTHY K. WEBSTER
JENNIFER J. CLARK
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com

Counsel for Petitioners
May 4, 2020

* Counsel of Record

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES .................................

ii

REPLY BRIEF ......................................................

1

I.

THIS CASE IMPLICATES A MULTIFACETED CIRCUIT SPLIT ................

1

II.

THE DECISION BELOW IS INCORRECT .....................................................

5

III.

THIS CASE INVOLVES A RECURRING ISSUE OF NATIONAL IMPORTANCE AND IS AN EXCELLENT
VEHICLE
TO
RESOLVE
THE
ACKNOWLEDGED SPLIT AMONG
THE COURTS OF APPEALS ..............

8

CONCLUSION .....................................................

12

(i)

ii
CASES

TABLE OF AUTHORITIES

Page

California ex rel. Cal. Dep’t of Toxic Substances Control v. Neville Chem. Co., 358
F.3d 661 (9th Cir. 2004) ............................. 1, 3
GenCorp, Inc. v. Olin Corp., 390 F.3d 433
(6th Cir. 2004) ............................................
5
Geraghty & Miller, Inc. v. Conoco Inc., 234
F.3d 917 (5th Cir. 2000), abrogated on other
grounds by Vine Street LLC v. Borg Warner
Corp., 776 F.3d 312 (5th Cir. 2015) ............
1
Kelley v. E.I. DuPont de Nemours & Co., 17
F.3d 836 (6th Cir. 1994) .............................
11
N.Y. State Elec. & Gas Corp. v. FirstEnergy
Corp., 766 F.3d 212 (2d Cir. 2014) ............ 4, 11
Schaefer v. Town of Victor, 457 F.3d 188 (2d
Cir. 2006) .................................................... 2, 4
United States v. Navistar Int’l Transp.
Corp., 152 F.3d 702 (7th Cir. 1998) ...........
2
STATUTES AND REGULATION
42 U.S.C. § 9601(24) ...................................... 6, 7
§ 9613(g)(2)(B) ...............................
6
40 C.F.R. § 300.415(e)(4) ...............................
7

REPLY BRIEF
Petitioners already demonstrated that there is serious confusion among the Courts of Appeals as to the
proper standard for determining when a cleanup action triggers CERCLA’s six-year statute of limitations
for recovery of remediation costs. Respondents’ efforts
to minimize this conflict by turns ignores the test the
Seventh Circuit applied below, misreads that test, or
simply assumes its correctness. Those efforts cannot
detract from the need for this Court’s guidance to provide some kind of uniformity to this often recurring
and outcome determinative question of law.
I. THIS CASE IMPLICATES A MULTIFACETED CIRCUIT SPLIT.
Respondents acknowledge that the circuits are split
over the proper test for triggering CERCLA’s six-year
statute of limitations for actions to recover costs of “remedial” work. Opp. 18. They nonetheless contend that
this case does not implicate the circuit split, but in doing so, they mischaracterize the disagreement among
the circuits as a simple two-way split over whether for
an action to be “remedial,” a final remedial action plan
must have been adopted. Id. at 17-19.
To the contrary, as Petitioners demonstrated, the
circuits have adopted multiple inconsistent tests for
triggering the six-year statute of limitations. The
Ninth and Fifth Circuits require a final remedial action plan before a permanent fix can be considered remedial. See California ex rel. Cal. Dep’t of Toxic Substances Control v. Neville Chem. Co., 358 F.3d 661, 667
(9th Cir. 2004); Geraghty & Miller, Inc. v. Conoco Inc.,
234 F.3d 917, 927 (5th Cir. 2000), abrogated on other
grounds by Vine Street LLC v. Borg Warner Corp., 776

2
F.3d 312 (5th Cir. 2015). The Second Circuit requires
an action “consistent with a permanent remedy” regardless of whether a remedial action plan has been
adopted. Schaefer v. Town of Victor, 457 F.3d 188, 20607 (2d Cir. 2006). The Seventh Circuit has rejected any
requirement of a remedial action plan, United States
v. Navistar Int’l Transp. Corp., 152 F.3d 702, 712 (7th
Cir. 1998), but in the decision below added a new requirement that to be remedial, a cleanup action, no
matter how permanent, must substantially resolve the
bulk of the pollution at the entire site, Pet. App. 17a.
The disagreement among the circuits is thus more
extensive and complex than Respondents would have
it. This case plainly implicates the actual circuit conflict. And the depth of the confusion reflected in the
legal standards applied in the lower courts makes this
Court’s review all the more warranted.
In a further effort to downplay the disarray among
the courts of appeals, Respondents attempt to portray
the question presented as fact-bound. Opp. 2, 13, 2123. The circuit split, however, centers on the proper
test for determining when an action is remedial and
thus triggers the six-year statute of limitations for cost
recovery actions. Notwithstanding Respondents’ mischaracterization, the question of what test should apply to trigger the statute of limitations is a question of
law. That courts necessarily apply the test to a particular set of facts in a given case does not render the
question of which test is correct fact-bound.
Respondents contend that the outcome in this case
would be the same under any test. Opp. 2, 19-20. They
note that in the Ninth Circuit, the existence of a remedial action plan is necessary, but not sufficient, for an
action to be remedial, and that actions taken after the

3
adoption of a plan can be removal actions. Opp. 19. The
Ninth Circuit explained, however, that removal actions taken after a plan is adopted are “interim rather
than permanent measures.” Neville, 358 F.3d at 670.
Here, the concrete cap installed at the surface impoundment was a permanent measure that remains in
place today, decades later, and was incorporated into
Respondents’ remediation plan for the site. See id. at
670-71 (explaining that the installation of a clay cap
over a landfill in Navistar would be deemed remedial
under the Ninth Circuit’s approach); Pet. App. 17a
(recognizing that the concrete cap is permanent); infra
7-8.
Respondents next attempt to cast doubt on the consent agreement in which the EPA determined the
means of remediation of the surface impoundment.
Although the agreement itself is not in the record, it is
described, and the relevant language is quoted, in a
record document, and both the district court and the
Seventh Circuit noted it in their decisions. See infra 89. Respondents also contend that both courts described
the agreement as limited to the excavation areas, but
both courts noted that it covered monitoring of “the
site.” Pet. App. 2a, 35a-36a. The Ninth Circuit explained that a cap installed after “the EPA determined
that, among other things, the landfill needed to be covered with a permanent clay cap to isolate the hazardous materials” would satisfy its test for remedial action. Neville, 358 F.3d at 670-71 (quoting Navistar, 152
F.3d at 704). Here, the concrete cap was installed after
a similar EPA determination as to the means of remediation.
Respondents also contend that the outcome here
would be the same in the Second and Fifth Circuits,
but their argument misreads the Second Circuit’s

4
analysis and conflates the Seventh Circuit’s “comprehensiveness” requirement with a requirement that the
action be “permanent.” Respondents misread the Second Circuit’s Schaefer decision as not even addressing
the standard for whether an action is remedial. Although the parties agreed that the overall cleanup was
remedial, the court’s analysis of which specific actions
constituted the initiation of the remedial action turned
on the test for when an action qualifies as remediation.
See Schaefer, 457 F.3d at 203-04 (use of a dragline was
an “‘action[] consistent with permanent remedy’”; “use
of cover is a ‘remedial action’ for purposes of the statute”). Respondents do not dispute that the cleanup efforts here would be remedial under Schaefer. Instead,
they rely on a subsequent Second Circuit decision,
N.Y. State Elec. & Gas Corp. v. FirstEnergy Corp., 766
F.3d 212 (2d Cir. 2014), which they say “makes clear
that a ‘remedial’ action is a ‘final, once-and-for-all
cleanup.’” Opp. 21 (quoting FirstEnergy Corp., 766
F.3d at 236). But they fail to explain how a permanent
concrete cap would not satisfy that test. In any event,
to the extent that FirstEnergy adopts a different test
from Schaefer, it merely adds to the overall confusion
among the lower courts for which this Court’s guidance
is needed.
Similarly, as to the Fifth Circuit, Respondents note
that the court applied the rule that “‘removal actions
generally are immediate or interim responses,’
whereas ‘remedial actions generally are permanent responses.’” Opp. 22 (quoting Geraghty, 234 F.3d at 926).
They do not explain why the permanent concrete cap
would fail that test, nor do they acknowledge that the
Seventh Circuit required not only a permanent action,
but also one that addressed substantially the bulk of
the pollution at the site.

5
As to the Sixth Circuit’s decision in GenCorp, Inc. v.
Olin Corp., 390 F.3d 433 (6th Cir. 2004), Respondents
assert only that the analysis was “fact-bound,” Opp.
22, but again, here the issue is the legal question of
what test to apply. In any event, the Sixth Circuit determined that the actions in GenCorp were not remedial because they were not permanent—the EPA required the defendants to dismantle their initial
cleanup efforts, 390 F.3d at 444-45. In stark contrast,
the concrete cap here remains in place. In equating the
Sixth Circuit’s analysis with the decision below, Respondents simply ignore the Seventh Circuit’s “comprehensiveness” requirement.
The courts of appeals have adopted multiple disparate tests for triggering the six-year limitations period
for recovery of remediation costs. This Court should
grant the petition to provide much-needed clarity to
allow parties to know whether and when a cause of action has accrued and when a claim has expired.1
II. THE DECISION BELOW IS INCORRECT.
Respondents have no response to Petitioners’ showing that the Seventh Circuit’s “comprehensiveness” requirement has no basis in the statutory text. The stat-

1 Respondents imply that it would be unfair for the statute of
limitations to have run years before it purchased the site. Opp. 9.
But that is precisely what statutes of limitations do. If the action
is remedial, an action to recover costs must be brought within six
years of initiation of the remediation. Any purchaser of a site
more than six years after remediation begins would not be able to
bring a cost recovery action. Indeed, this demonstrates the need
for clarity in the test for when the six-year statute of limitations
is triggered. A test based on an amorphous concept of “comprehensiveness” fails to alert parties that their cause of action has
accrued.

6
ute starts the limitations period from the date of “initiation” of onsite physical construction of remediation,
i.e., actions “consistent with permanent remedy.” 42
U.S.C. § 9613(g)(2)(B); id. § 9601(24). It says nothing
about “substantially resolv[ing] the bulk of” the site’s
pollution or any threshold level of “comprehensiveness.”
The Seventh Circuit’s atextual requirement does not
start the limitations period from the date of initiation
of actions consistent with a permanent remedy, but rather from the date of clean-up work constituting the
entirety (or some indefinite level close to the entirety)
of the permanent remedy. This standard potentially
eviscerates the statute of limitations, as any single aspect of a cleanup operation is unlikely to qualify as addressing the bulk of the pollution. It also ignores the
reality that CERCLA clean up actions are frequently
multi-phase actions over multiple years. Respondents’
only response is that here “two distinct companies”
performed “two distinct cleanup operations.” Opp. 17.
But it is often the case in the CERCLA context that
cleanup operations span multiple owners of a site. And
here Respondents themselves characterized the earlier cleanup efforts as a key component of the overall
remedial plan. See ECF No. 101-11.2
Respondents contend that the decision below correctly classified the surface impoundment work as removal rather than remedial action. But to do so, they
simply assume the correctness of the Seventh Circuit’s

2 “ECF No.” citations refer to the district court docket: Valbruna Slater Steel Corp. v. Joslyn Mfg. Co., No. 1:10-cv00044-JD
(N.D. Ind.).

7
“comprehensiveness” test. Opp. 14-15. That is precisely the question that this Court should grant the petition to resolve.
Respondents note that the regulatory definition of
“removal” includes “[c]apping of contaminated soils or
sludges.” Opp. 14, 15 (alteration in original). But they
omit that the definition includes capping only “where
needed to reduce migration” of pollutants into the environment, consistent with the temporary nature of removal actions. 40 C.F.R. § 300.415(e)(4) (emphasis
added). The statutory definition of “remedial action,”
by contrast, is “actions consistent with permanent remedy.” 42 U.S.C. § 9601(24) (emphasis added). And although Respondents quote part of the statutory definition of “remedial action,” Opp. 14, they omit the part
of that definition listing “confinement” of pollutants as
an example of remedial action, 42 U.S.C. § 9601(24). A
permanent concrete cap intended to confine pollutants
at the surface impoundment is remedial under the
plain language of the definition.3
Respondents do not dispute that the concrete cap
was a permanent fix and remains in place today. Citing only their own opposition to Petitioners’ motion for
summary judgment, Respondents contend that the impoundment work failed to fully contain the contamination. Opp. 15, 24-25. But as the district court explained, after Slater installed the reinforced-concrete
cap, IDEM accepted Slater’s application stating that
the “site remediation was complete,” and issued a certificate acknowledging “a successful remediation of the

3 In describing the surface impoundment cleanup in the factual
background section, Respondents neglect to even mention the
permanent concrete cap or the groundwater monitoring system
installed in 1991-1992. Opp. 6.

8
former Joslyn surface impoundment location.” Pet.
App. 36a. The Seventh Circuit similarly treated the
cap as a permanent solution, refusing to classify it as
remedial not because of any lack of permanency, but
solely because it did not “substantially resolve the bulk
of the site’s ongoing pollution problems,” and thus was
not sufficiently “comprehensive.” Pet. App. 17a; id.
(“So while the fix may have been permanent, it was so
far from comprehensive that we cannot say it was a
remedial action.”).
III. THIS CASE INVOLVES A RECURRING ISSUE OF NATIONAL IMPORTANCE AND IS
AN EXCELLENT VEHICLE TO RESOLVE
THE ACKNOWLEDGED SPLIT AMONG THE
COURTS OF APPEALS.
Respondents do not dispute that the proper trigger
for CERCLA’s six-year statute of limitations is an issue that arises frequently and applies nationwide.
This Court’s guidance would provide much-needed national uniformity.
Respondents also do not dispute that the facts of this
case are typical of CERCLA cost-recovery actions. Instead, Respondents make several arguments to contend that this case is a poor vehicle for this Court to
resolve the circuit split. None is availing.
First, Respondents contend that Petitioners forfeited reliance on the consent agreement in which the
EPA determined that if the impoundment could not be
closed “by removal,” it should be closed as a “landfill.”
Opp. 23. According to Respondents, this is because the
district court docket does not contain the consent
agreement itself but instead contains a proposed Corrective Action Agreed Order prepared by IDEM that
“allegedly paraphrases” the consent agreement. Id. at

9
24. Respondents’ position is meritless. Both the district court and the Court of Appeals noted the consent
agreement in their respective decisions. Pet. App. 2a;
id. at 35a-36a (citing ECF No. 46-7, at 8). And the
IDEM Agreed Order in the record includes the consent
agreement as a “Finding of Fact” and directly quotes
the relevant language. ECF No. 46-7, at 8-9. Moreover,
Petitioners rely on the consent agreement here only to
demonstrate that the action would be untimely in the
Ninth Circuit, which requires an agreed remedial action plan to trigger the statute of limitations for “remedial” costs.
Next, Respondents take issue with Petitioners’ citation to Respondents’ 2012 “Remediation Work Plan.”
Respondents do not dispute that they characterized
the 1991 closure of the former impoundment as a “key
component” of the “overall remedial strategy.” Their
only response is to point out that the 2012 Remediation Work Plan also referred to Slater’s work at the
impoundment as “removal efforts.” Opp. 24. While the
excavations done between 1981 and 1987 might be
deemed a “removal effort” because contaminated
sludge was removed and hauled away, that does not
necessarily make it a “removal action” as defined by
CERCLA. And even if the excavations were deemed
“removal action,” Respondents themselves observe
that remedial action can be in addition to removal action. Id. at 16. The cap was remedial action in addition
to any removal actions because it was installed to effect a permanent remedy through closure of the impoundment. Indeed, Respondents’ “Remediation Plan”
referred to the “surface impoundment closure” as
“Source Remediation.” ECF No. 101-11 (emphases
added).

10
Respondents further reiterate their contention that
the impoundment work did not fully contain the contamination. As noted above, this contention mischaracterizes the record and ignores the district court’s and
the Seventh Circuit’s characterization of the cap as
permanent. Supra 7-8.
Finally, Respondents contend that as a result of the
district court’s alternative holding, Petitioners could
not obtain relief even if the Court granted certiorari
and ruled in Petitioners’ favor. Opp. 25-26. This contention is baffling. The district court ruled in the alternative that even if the concrete cap were a remedial
action, it was “a separate and distinct cleanup effort”
from the later remediation at the site and thus each
remediation effort was subject to a separate limitations period. Pet. App. 52a-58a. Respondents
acknowledge, however, that the Court of Appeals did
not address this alternative holding in affirming the
district court. Opp. 25; Pet. App. 17a-18a. If this Court
ruled in Petitioners’ favor, the case would be remanded
to the Seventh Circuit for further proceedings consistent with the Court’s decision. Depending on how
the Court resolves the question presented, its ruling
might well foreclose the district court’s alternative
holding here. And of course, in ruling on the proper
test for triggering the six-year statute of limitations in
a multi-phase cleanup effort, this Court could choose
to provide guidance to the lower courts on the related
issue of whether there can be more than one remedial
action at a given site.
In any event, if the Court’s decision did not of its own
accord eliminate the district court’s alternative basis
for holding the action timely, the Seventh Circuit could
address that holding on remand. And it is far from
clear that the Seventh Circuit would affirm the district

11
court on this basis. As the Second Circuit has explained, “[v]irtually every court that has considered
this issue has agreed” that “there can only be one remedial action at any given site.” FirstEnergy Corp.,
766 F.3d at 235-36 (citing, inter alia, Colorado v.
Sunoco, Inc., 337 F.3d 1233, 1241 (10th Cir. 2003) and
Kelley v. E.I. DuPont de Nemours & Co., 17 F.3d 836,
843 (6th Cir. 1994)); see Kelley, 17 F.3d at 843 (all removal activity should be considered part of one removal action because “[i]t is simply inconsistent with
the[ ] ‘essential purposes’ [of CERCLA] to require suit
on each arguably independent removal activity”). In
the decision below, the Seventh Circuit recognized this
weight of authority contrary to the district court’s ruling. Pet. App. 17a n.4. The court “note[d]” that it “appear[s] to have recognized [the district court’s alternative holding] ground before.” Id. (emphasis added) (citing Bernstein v. Bankert, 702 F.3d 964, 984 (7th Cir.
2012), amended and superseded on reh’g, 733 F.3d 190
(7th Cir. 2013)). But it left open whether Bernstein
conflicts with the circuit courts that “have rejected the
idea that there can be multiple removal or remediation
actions at a given site.” Id. On remand, guided by this
Court’s decision, the Seventh Circuit would likely reverse the district court’s alternative ruling. In any
event that alternative holding is no reason not to resolve the question presented here as to what triggers
the six-year statute of limitations for cost recovery actions under CERCLA, and this case is an excellent vehicle for this Court to decide that recurring and important question.

12
CONCLUSION
The petition should be granted.
Respectfully submitted,
JOSHUA G. VINCENT
HINSHAW & CULBERTSON
151 N. Franklin St., #2500
Chicago, Illinois 60606
(312) 704-3463
STEPHEN D. DAVIS
STEVE DAVIS LAW, P.C.
1333 Burr Ridge Parkway
Burr Ridge Illinois 60527
(630) 756-3042

CARTER G. PHILLIPS *
TIMOTHY K. WEBSTER
JENNIFER J. CLARK
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com

Counsel for Petitioners
May 4, 2020

* Counsel of Record

